U.S. Department of                                     The Inspector General           Office of Inspector General
Transportation                                                                         Washington, DC 20590
Office of the Secretary
of Transportation

November 19, 2009



The Honorable Patty Murray                               The Honorable John W. Olver
Chairman                                                 Chairman
Subcommittee on Transportation,                          Subcommittee on Transportation,
Housing and Urban Development, and                       Housing and Urban Development, and
Related Agencies                                         Related Agencies
Committee on Appropriations                              Committee on Appropriations
United States Senate                                     United States House of Representatives
Washington, DC 20510                                     Washington, DC 20515

The Honorable Christopher “Kit” Bond                     The Honorable Tom Latham
Ranking Member                                           Ranking Member
Subcommittee on Transportation,                          Subcommittee on Transportation,
Housing and Urban Development, and                       Housing and Urban Development, and
Related Agencies                                         Related Agencies
Committee on Appropriations                              Committee on Appropriations
United States Senate                                     United States House of Representatives
Washington, DC 20510                                     Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

This quarterly report presents our assessment of Amtrak’s fiscal year 2009
unaudited financial performance, as well as our review of Amtrak’s fiscal year
2010–2014 Five-Year Financial Plan and fiscal year 2010 annual budget, as
required by the Passenger Rail Investment and Improvement Act of 2008
(PRIIA). 1 This report also includes an update on Amtrak’s work to improve
services, business processes, and operating results. 2

1
    PRIIA authorizes funding for Amtrak through 2013 and as a result, required Amtrak to develop its first
    5-year financial plan covering fiscal years 2010–2014. After approval of the plan by its board of
    directors, staff submitted the plan to the Secretary of the Department of Transportation and the Office of
    Inspector General (OIG) on October 1, 2009. As required by PRIIA, OIG reviewed the plan to determine
    if it met the requirements outlined in section 204. Pub. L. No. 110-432 (2008).
2
    Formally known as Strategic Reform Initiatives.


CC-2009-098
                                                                                                                                  2

SUMMARY

Amtrak’s fiscal year 2009 operating loss of $468.2 million was $6.8 million, or
1.4 percent less than budget (see figure 1). 3 This is a $22.9 million improvement
to the forecasted loss we reported last quarter. Amtrak’s 5-year financial plan
complied with most PRIIA requirements. However, improvement to Amtrak’s
reporting systems, such as the capacity to report information on key cost drivers
for various expenses, will provide more detailed financial data that will bring the
plan into full compliance with PRIIA requirements in future years. Finally, as
outlined in its recently issued Strategic Guidance, Amtrak’s approach regarding
tracking and measuring its savings from various operating reform initiatives has
evolved to one focused on measuring its overall performance as opposed to
tracking the impact of specific reform initiatives on its operations. We believe
Amtrak’s new approach appears reasonable. However, as we continue to review
Amtrak’s quarterly performance we will evaluate the effectiveness of this
approach.

Figure 1. Amtrak Actual vs. Budget Fiscal Year 2009 Operating Loss
(Dollars in Millions)

       0    (28.4)   (42.3)

            (31.4)            (82.2)

    (100)            (61.6)

                              (107.6) (160.8)
                                                  (202.6)
    (200)                               (178.3)
                                                            (259.9)
                                                  (240.2)             (303.3)
    (300)                                                   (278.7)             (330.2)

                                                                      (316.6)             (367.2)
                                                                                                    (394.9)
                                                                                (347.1)
    (400)                                                                                 (364.8)             (430.8)
                                                                                                    (390.3)
                                                                                                                        (468.2)
                                                                                                              (423.0)

    (500)                                                                                                               (475.0)



    (600)
             Oct      Nov      Dec        Jan      Feb       Mar       Apr       May       Jun        Jul      Aug       Sep

                                     Actual         Budget            Federal Operating Support

Source: OIG analysis of Amtrak data

3
     Operating loss is reported on an earnings before interest, taxes, depreciation, and other post-employment
     benefits (EBITDO) basis, unless otherwise noted. EBITDO operating loss is a measure of Amtrak’s
     ability to operate within its available resources and serves as a reasonable proxy for Amtrak’s Federal
     operating support requirements.


CC-2009-098
                                                                                     3

AMTRAK’S FISCAL YEAR 2009 OPERATING LOSS WAS SLIGHTLY
LESS THAN EXPECTED

Amtrak’s operating loss for fiscal year 2009 decreased relative to the budgeted
loss as lower than budgeted revenues were offset by lower than budgeted
expenses. Table 1 shows Amtrak’s fiscal year 2009 actual operating revenues,
expenses, and loss compared to the fiscal year 2009 budget and fiscal year 2008
actual results. As shown below, Amtrak’s end-of-year operating loss of $468.2
million was $6.8 million less than budget but $73.9 million more than Amtrak’s
fiscal year 2008 loss of $394.3 million. Amtrak’s end-of-year cash balance was
$199.1 million. Amtrak’s ridership and revenues continued to decline, particularly
in the northeast, due to poor economic conditions, high unemployment, lower
gasoline prices, and sharp declines in business and leisure travel. Declines in
expenses—driven by lower fuel, salaries and wages, and benefits—offset these
lower revenues. The impact of these factors on Amtrak’s fiscal year 2009
financial performance is discussed below.

Table 1: Amtrak’s Fiscal Year 2009 Financial Performance

                                                                    Variance
                                FY 2009          FY 2008
                                                            Favorable / (Unfavorable)
                          Actual      Budget      Actual     Budget        FY 2008
Total Operating
                $2,321.4              $2,547.0   $2,425.5   ($225.6)      ($104.1)
Revenues
Total Operating
                         $2,789.6     $3,022.0   $2,819.8    $232.4        $30.2
Expenses
Operating
                          ($468.2)    ($475.0)   ($394.3)     $6.8         ($73.9)
Profit/(Loss)
Source: OIG analysis of Amtrak data

Operating Revenue. Total passenger and other operating revenue in fiscal
year 2009 was $2.3 billion—$225.6 million below budget and $104.1 million less
than fiscal year 2008. Amtrak's total ridership in fiscal year 2009 was 27.2 million
trips, 9.3 percent below budget and 5.4 percent lower than the prior year. As a
result, passenger-related revenue was below budget by $277.7 million or
13.2 percent. Partially offsetting the lower passenger-related revenues were
Amtrak's commuter and other operating revenues, which were above budget by
$52.1 million or 11.5 percent, primarily due to a settlement regarding outstanding
fees from New Jersey Transit, increased reimbursable work, and higher than
budgeted building rents and other fee receipts.



CC-2009-098
                                                                                                    4

Acela ticket revenues, which were below budget by $93.9 million or 18.7 percent,
and lower Northeast Regional train ticket revenues, which were below budget by
$75.5 million or 14.9 percent, were major factors in Amtrak’s disappointing
passenger revenues (see table 2). Unlike the first and second quarters, Amtrak’s
long distance trains performed below budget in the second half of fiscal year 2009
but to a lesser degree than Acela or the regional Northeast Corridor (NEC) trains.
Overall in fiscal year 2009, Amtrak's long distance train revenues were lower than
budget by $28.4 million or 6.5 percent. This occurred despite a 0.7 percent
increase in ridership compared to fiscal year 2008.

Table 2. Amtrak Ridership and Passenger Ticket Revenues, Actual vs.
Budget – Fiscal Year 2009

                                         Ridership                         Ticket Revenue
                                       (in millions)                        ($ in millions)
                              Actual      Budget       % Diff.    Actual       Budget     % Diff.

NEC:†                           9.9        11.2        (11.3%)   $841.7       $1,011.7   (16.8 %)

• Acela                         3.0         3.5       (14.4 %)   $409.3        $503.2    (18.7 %)

• Northeast Regional            6.9         7.7        (9.8%)    $431.4        $506.9     (14.9%)
State-Supported and
                               13.0        14.4        (9.5%)    $346.2        $397.0     (12.8%)
  Other Corridors
Long Distance                   4.2         4.3        (3.3%)    $411.6        $439.9     (6.5%)

Amtrak Total                   27.2        29.9        (9.3%)    $1,599.5     $1,848.6    (13.5%)
Source: Amtrak
Note: % Diff. = percent difference between actual and budget.
†: Total includes NEC Special Trains, not shown.

Operating Expenses. Total fiscal year 2009 operating expenses were
$2.8 billion—$232.4 million or 7.7 percent better than budget and $30.2 million
lower than fiscal year 2008. These lower expenses continue to be primarily due to
lower salaries, wages, and railroad retirement (RRTA) taxes, as well as lower fuel
costs. Offsetting these lower expenses was a $14.9 million increase in incentive
payments to the host railroads for improved on-time performance. In addition,
health benefits for agreement employees reversed their trend in the fourth quarter,
ending fiscal year 2009 $0.3 million over budget.

The lower RRTA taxes and fuel costs reflect the continuation of trends from the
first through third quarters of fiscal year 2009. Amtrak overestimated the amount
of RRTA taxes it was required to pay by $11.4 million. Additionally, it continued


CC-2009-098
                                                                                 5

to save on train fuel costs through the fourth quarter of fiscal year 2009, posting
$182.2 million in savings compared to budget.

AMTRAK’S FIVE-YEAR FINANCIAL PLAN IS A GOOD STARTING
POINT FOR MANAGING OPERATIONS FOR THE LONG TERM

Although Amtrak’s 5-year plan complied fully with 14 out of 16 PRIIA
requirements, we found that additional detailed financial information could bring
the plan into full compliance. Prior to the development of its 5-year plan and
Strategic Guidance, Amtrak lacked a long-term, integrated approach for managing
operations. Now with these management tools in place, Amtrak’s fiscal year 2010
budget and plan incorporates the strategic goals of the company and establishes a
clear understanding of what it is trying to accomplish with its resources and
company activities.

Amtrak’s 5-Year Plan Generally Complies with PRIIA

Amtrak's 5-year financial plan complies with the majority of requirements outlined
in sections 204(b) and (c) of PRIIA. However, we found that the plan could have
provided additional information for two requirements.             This additional
information, such as key cost drivers for various expenses and Amtrak’s strategy
for managing its aging workforce, could provide additional insight to key
stakeholders in understanding Amtrak operations. Specifically:

• Section 204(b)(3) requirement to report expenditure forecasts for non-
  passenger operations, in our opinion was not completely fulfilled. The cost
  data for "Materials; Facilities, Communication, & Office; Advertising and
  Sales; and Other Non-labor Fees/Services," which accounted for approximately
  35 percent of "Total Expenses," was reported on a summary account level.
  Unlike other cost data forecasts included in the plan, there was no detailed
  financial data such as the cost drivers for these categories of expenditures.

• Section 204(b)(7) requirement to assess Amtrak’s continuing financial
  stability, as indicated by factors such as anticipated Federal funding of capital
  and operating costs; an ability to efficiently recruit, retain, and manage the
  workforce; and an ability to effectively provide passenger rail service, did not
  include detailed information on Amtrak’s workforce planning efforts.

Amtrak officials acknowledged the absence of detailed information regarding
these requirements, but stated that their reporting was limited by their financial
systems' capabilities. These officials noted that reporting will improve next year
and beyond, in large part due to the integration of key operational, financial and



CC-2009-098
                                                                                  6

human resources business processes and the replacement of core outdated
financial, work management, and other systems as mandated by PRIIA.

Despite these limited reporting capabilities, Amtrak staff did not appropriately
address its workforce planning efforts. Section 204(b)(7) requires Amtrak to
provide an assessment of continuing financial stability, as indicated by factors
such as anticipated Federal funding of capital and operating costs; an ability to
efficiently recruit, retain, and manage the workforce; and an ability to effectively
provide passenger rail service. The plan only addressed anticipated funding and
capital and operating costs. According to Amtrak officials, information on
Amtrak staffing was covered in the Salaries and Wages section of the plan,
specifically noting that each department was responsible for determining
individual staffing levels. However, we believe this information is inconsistent
with the spirit of the requirement. As Amtrak states in its 2009 Strategic
Guidance, over half of its workforce is over age 50, and a large round of
retirements is due within the next 10 years. As a result, planning in order to
recruit, retain, and manage its workforce is critical to managing operations.

We believe Amtrak’s 5-year planning efforts could lead to improved reporting for
Amtrak’s budgetary needs in the near future. Amtrak submits its Legislative and
Grant request for the upcoming year to Congress each February, outlining the
Federal assistance needed for its operations and capital improvements, ahead of
the completion of its budget for that year. Since bottom-up budgeting was
completed for each of the departments as part of the development of the 5-year
financial plan, Amtrak officials believe the fiscal year 2011 Legislative and Grant
Request will be a more accurate estimate of Amtrak’s budgetary needs.
According to Amtrak officials, in previous years, finance staff would apply an
inflation factor to the current year’s revenue and expense figures to develop the
Legislative and Grant request. In preparing future budgets, Amtrak officials stated
that finance staff will now only have to make adjustments based on feedback from
individual departments on factors that might affect the base numbers for fiscal
years 2011–2014. In addition, we believe once Amtrak implements improved
financial and operating reporting systems, better data will support the analysis
included in its 5-year plan and budget requests.

Amtrak’s Fiscal Year 2010 Budget Reflects the Goals Outlined in its Strategic
Guidance

Amtrak’s fiscal year 2010 budget reflects the strategic goals of the company, as
stated in the fiscal year 2009 Strategic Guidance, fiscal year 2010 Legislative and
Grant Request, and fiscal year 2010 operating and capital budget manuals.




CC-2009-098
                                                                                 7

In 2009, Amtrak’s board of directors and management developed new Strategic
Guidance for the company. Similar to a strategic plan, the guidance outlines a
number of goals for Amtrak to achieve its mission:

• Safer—operate the safest possible passenger railroad.
• Greener—increase efficiency, reduce emissions, and make better use of
  resources.
• Healthier—improve the condition, durability, and wholesomeness of the
  company.
• Improve financial performance—improve the bottom line.
• Improve customer service—improve the quality and attractiveness of service
  for customers.
• Meet national needs—help with disaster relief and mobilization and help
  advance national policies and plans.

In addition, Amtrak’s Strategic Guidance outlines a set of criteria, Key
Performance Indicators (KPI) that will be used to measure Amtrak’s progress in
achieving its goals. KPIs will measure both efficiency and effectiveness and will
be linked to one or more goals.

Figure 2: Amtrak’s Key Performance Indicators


Efficiency Measures:
1. Cost per Available Seat Mile (CASM) - cost to move a seat one mile.
2. Cost Recovery Ratio (CRR) - proportion of expenses that are covered by
   revenues.
3. Passenger Miles per Core Employee - total passenger miles divided by employees
   in core business lines.
4. Revenue per Available Seat Mile (RASM) - income produced by moving a seat one
   mile.

Effectiveness Measures:
1. Safety Ratio - number of reportable injuries per 200,000 man-hours of work.
2. Customer Service Index (CSI) - survey-generated measure of performance.
3. Host Railroad Performance - minutes of delay per ten thousand train miles.
4. On-Time Performance (OTP) - percentage of trains that arrive at their destination
   within the “threshold of tolerance” for delay.
Source:  Amtrak
5. Ridership      2009- Strategic
             Growth     percentageGuidance
                                    of increase (or decrease) in riders.
Source: Amtrak 2009 Strategic Guidance




CC-2009-098
                                                                                    8

AMTRAK HAS TRANSITIONED FROM OPERATING REFORMS

As reported in our February 2009 quarterly report, Amtrak did not include any
new operational reforms as part of its fiscal year 2009 budget. The operational
reforms, known as Strategic Reform Initiatives (SRI) were intended to improve
Amtrak’s operating efficiencies and lower its dependence on Federal operating
subsidies. Our previous quarterly reports tracked Amtrak’s operating savings as a
result of specific initiatives. According to Amtrak officials at the time, a new
strategic plan, which was then under development, would provide further guidance
on the possibility for future operational reforms.

Amtrak’s approach has evolved with regard to tracking and measuring its savings
from operational reforms. According to the 5-year plan, although some of the
early initiatives were suspended or modified due to unforeseen issues, Amtrak has
continued to pursue improvement initiatives tied to the original SRIs. However,
Amtrak officials stated that management will not measure the net impact of
individual initiatives because it is too difficult to determine the incremental impact
of any given initiative or project on one metric. For example, if Amtrak’s
marketing department invests additional funds to promote the Acela and revenues
increase for that route, there is no clear way to determine if or what portion of the
increase is due to higher gasoline prices, deteriorating airline service, or the
marketing campaign. Instead, executives will discuss the results of improvement
initiatives and when intended outcomes are not achieved, they will require the
relevant departments to take action to address the targeted KPIs. If the
departments achieve the KPIs, then the improvement initiatives will be deemed
successful. The Strategic Guidance states that KPIs will be used to evaluate
management and to ensure that leadership’s attention and effort are properly
focused.

The 5-year plan includes an analysis of Amtrak’s new approach to evaluating the
impact of its improvement initiatives on overall performance. Specifically, it
includes (1) an analysis of improvement initiatives that are expected to save an
estimated $67.3 million between fiscal year 2010 and 2014 and (2) an analysis of
the impact on revenues per seat mile (RASM), cost per seat mile (CASM), and
cost recovery ratio (CRR) with the implementation of the improvement initiatives
and without. The second analysis shows that the impact of improvement
initiatives can have a significant effect on Amtrak’s KPIs. Amtrak officials stated
that because the 5-year plan will be updated annually, staff will be able to
periodically evaluate the targets established for its KPIs and update them along
with the savings and investments for the improvement initiatives accordingly.




CC-2009-098
                                                                                     9

OIG’S ONGOING REVIEW OF AMTRAK’S QUARTERLY
PERFORMANCE WILL FOCUS ON KPIs

As a result of Amtrak’s shift in focus for measuring its operating reforms, the OIG
will take a similar approach. The fiscal year 2009 Appropriations Act requires the
OIG to report quarterly to the House and Senate Committees on Appropriations
estimates of the savings accrued as a result of all operational reforms instituted by
Amtrak. In addition to reporting on Amtrak’s financial performance each quarter,
we will track and evaluate Amtrak’s KPIs. In particular, we will track the
efficiency measures of CASM, RASM, and CRR.

Evaluating the KPIs will provide a better measure of Amtrak’s focus on improving
operating efficiencies and achieving its corporate goals. For example, CRR and
CASM are tied to the goal “improving financial performance.” Therefore, by
improving its ratio of earnings to costs, Amtrak can improve its CRR. Similarly,
CASM—which measures the money that is spent to generate Amtrak’s basic unit
of commerce, the seat mile—can provide a comparison of costs and relate those
costs to the number of products generated. Amtrak officials believe that this
approach provides more transparency in evaluating their efforts to be a more
efficient provider of intercity passenger rail service, as well as improves their
efforts to reduce reliance on Federal operating subsidies more than the previous
SRIs and the related tracking of operating savings as a result of specific initiatives.
This is in part because the SRIs may have inadvertently shifted Amtrak
management’s focus to the performance of the SRIs themselves and the financial
savings achieved, rather than allowing management to retain its focus to the larger
goal of becoming a more efficient operator of intercity passenger rail service that
is less reliant on Federal operating support. We believe Amtrak’s approach to
focus on corporate performance metrics and the impact of improvement initiatives
on those metrics appears reasonable. However, as we continue to review
Amtrak’s quarterly performance, we will evaluate the effectiveness of this
approach.




CC-2009-098
                                                                                10

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
Mitch Behm, Program Director, Office of Inspector General for Amtrak, High
Speed Rail, and Economic Analysis, at (202) 366-1995.

Sincerely,




Calvin L. Scovel III
Inspector General
cc:   Secretary of Transportation
      Chairman of Amtrak’s Board of Directors




CC-2009-098
